No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DEPARTMENT OF HEALTH AND HUMAN SERVICES, ET AL., PETITIONERS
v.
STATE OF CALIFORNIA, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the PETITION FOR A WRIT OF CERTIORARI, via email and first-class mail, postage
prepaid, this 19TH day of February, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 3586 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on February 19, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
February 19, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of your
brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case
Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

Service List
State of California et al.:
Xavier Becerra
Attorney General of California
Christina Bull Arndt
Kathleen Boergers
Supervising Deputy Attorneys General
Karli Eisenberg
Nimrod Elias
Deputy Attorneys General
Office of the California Attorney General
1300 I Street
Suite 125
Sacramento, CA 95814
916-324-5360
Karli.Eisenberg@doj.ca.gov
March for Life:
Kevin H. Theriot
Alliance Defending Freedom
15100 N. 90th St.
Scottsdale, AZ 85260
(480) 444-0020
ktheriot@ADFlegal.org
Little Sisters of the Poor Jeanne Jugan Residence:
Mark L. Rienzi
The Becket Fund for Religious Liberty
1200 New Hampshire Ave. NW
Suite 700
Washington, D.C. 20036
(202) 955-0095
mrienzi@becketlaw.org

